Department of Health and Human Services 

                   OFFICE OF 

              INSPECTOR GENERAL 





    MEDICARE COMPLIANCE 

  REVIEW OF MISSION HOSPITAL 

       FOR 2011 AND 2012 




  Inquiries about this report may be addressed to the Office ofPublic Affairs at
                           Public.A((airs@oig.hhs.gov.




                                                     Lori S. Pilcher 

                                               Regional Inspector General 

                                                   for Audit Services 


                                                      October 2014
                                                      A-04-14-03077
                         Office ofInspector General
                                          http:// oig.hhs.gov



The mission of the Office oflnspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office oflnvestigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY 


Mission Hospital did not fully comply with Medicare requirements for billing inpatient and
outpatient services, resulting in overpayments ofat least $443,183 over 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Mission Hospital (Mission), complied
with Medicare requirements for billing inpatient and outpatient services on selected types of
claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary's stay is assigned and the severity level ofthe patient's
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary's stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

Mission, which is part ofthe Mission Health System, is a 795-bed hospital located in Asheville,
North Carolina. Medicare paid Mission approximately $697 million for 53,057 inpatient and
295,685 outpatient claims for services provided to beneficiaries during CYs 2011 and 2012
based on CMS's National Claims History data.

Our audit covered $18,584,513 in Medicare payments to Mission for 2,105 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 192
claims with payments totaling $2,760,822. These 192 claims had dates of service in CY 2011 or
CY 2012 and consisted of 11 0 inpatient and 82 outpatient claims.

WHAT WE FOUND

Mission complied with Medicare billing requirements for 144 ofthe 192 inpatient and outpatient
claims we reviewed. However, Mission did not fully comply with Medicare billing requirements
for the remaining 48 claims, resulting in overpayments of$121,594 for CYs 2011 and 2012
(audit period). Specifically, 28 inpatient claims had billing errors resulting in overpayments of
$100,165, and 20 outpatient claims had billing errors resulting in overpayments of$21,429.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)
These errors occurred primarily because Mission did not have adequate controls to prevent the
incorrect billing of Medicare claims within the selected risk areas that contained errors.

On the basis of our sample results, we estimated that Mission received overpayments of at least
$443,183 for the audit period.

WHAT WE RECOMMEND

We recommend that Mission:

    • 	 refund to the Medicare program $443, 183 in estimated overpayments for claims it
        incorrectly billed for the audit period and

    •     strengthen controls to ensure full compliance with Medicare requirements.

MISSION HOSPITAL COMMENTS AND OUR RESPONSE

Mission Comments

In written comments on our draft report, Mission partially agreed with our first recommendation
and discussed steps that it had taken or planned to take in regards to our second recommendation.
In regards to our first recommendation, Mission agreed that 23 claims were billed incorrectly and
described the actions it had taken to correct them.

Mission did not agree that it incorrectly billed 24 short stay claims and said it would appeal all
24 cases. Additionally, Mission did not agree that it incorrectly billed one medical device claim.

Mission also disagreed with our use of extrapolation for the short stay cases and said that:

        • 	 the audit report had insufficient information to determine the validity of the sampling and

        • 	 it was not provided the details of the statistical sampling methodology.

Mission said that based on the timing of the review and the directive that it should not take action
on the claims involved in the audit until the review was finalized, Mission would not have been
able to bill Medicare Part B for any of the claims under the timely filing rules.

Mission further stated that four ofthe DRGs we reviewed have already had record requests and
denials from either a RAC or MAC. Mission reasoned that it would be paying these
overpayment cases twice if the OIG extrapolation covered a DRG that was for the same time
period that the RAC or MAC had already reviewed.

With respect to one of the medical device claims for which Mission did not obtain a
manufacturer's credit, Mission said that the case involved a "subclavian crush injury to a cardiac
lead," and as such, the manufacturer representative indicated that they do not issue warranty
credits for "crush injuries."



Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                         ii
Office of Inspector General Response

In response to Mission's concerns regarding rebilling for certain services that were denied as part
of this review, we acknowledge its comments; however, the rebilling issue is beyond the scope
of our audit. As stated in the report, we were unable to determine the effect that billing Medicare
Part B would have on the overpayment amount because Mission had not billed, and the MAC
had not adjudicated, these services prior to the issuance of our draft report.

In regard to Mission's disagreement that it incorrectly billed 24 short stay claims, we submitted
for medical review by the MAC Mission's medical record documentation for each ofthese
claims. We also submitted for medical review the additional medical record documentation that
Mission gave us subsequent to the MAC's original determination. On the basis ofthe medical
review findings, we continue to maintain that Mission incorrectly billed these 24 claims.

We do not agree with Mission's comment regarding the claim for which it did not seek a
manufacturer's credit. The manufacturer's warranty required Mission to return the lead to the
manufacturer so that it could determine whether it was eligible for a credit. In its written
comments, Mission did not provide any documentation to show that it complied with this
requirement of the manufacturer's warranty. Therefore, we continue to question this claim.

Regarding Mission's objections to our statistical sampling and extrapolation, Federal courts have
consistently upheld statistical sampling and extrapolation as a valid means to determine
overpayment amounts in Medicare. See Anghel v. Sebelius, 912 F. Supp. 2d 4 (E.D.N.Y. 2012);
Miniet v. Sebelius, 2012 U.S. Dist. LEXIS 99517 (S.D. Fla. 2012); Bend v. Sebelius, 2010 U.S.
Dist. LEXIS 127673 (C.D. Cal. 2010).

Furthermore, the use of statistical sampling and extrapolation to determine overpayment amounts
in Medicare does not violate due process because the auditee is given the opportunity to appeal
the audit results through the Medicare appeals process. See Transyd Enter., LLC v. Sebelius,
2012 U.S. Dist. LEXIS 42491 at *34 (S.D. Tex. 2012).

We disagree with Mission's comment that it was not provided the details of our statistical
sampling methodology. Prior to beginning our onsite work at Mission, at both the entrance and
exit conferences, and numerous instances during the course of our audit, Mission had questions
concerning our sampling frame, sample selection, and extrapolation. On each ofthese occasions,
we thoroughly discussed and answered Mission's questions. Specifically, we discussed the
development and definition of our sampling frame and sample unit. We discussed the random
selection of our sample, how we applied relevant criteria in evaluating the sample, and the
statistical sampling software that we used to apply the correct formulas for the extrapolation.
Additionally, we directed Mission to the OIG Web site where, if it had further questions, the
statistical software used to extrapolate the results was available for public use.

With respect to Mission's concerns about duplicate refunds for reviews ofthe same claims in our
sampling frame, we excluded all claims in our sampling frame from future Recovery Audit
Contractor (RAC) review and removed claims from our sample frame that the RAC had



Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                    iii
previously reviewed. Additionally, while the RACs do have the authority to extrapolate, CMS
told us that the RACS have not done so. For these reasons, our extrapolation would not have
caused Mission to pay twice for overpayments in our sampling frame. However, to prevent
repaying Medicare twice for claims that Mission may have already repaid due to previous RAC
or MAC reviews, Mission should tell CMS which claims in our sampling frame were previously
adjusted. CMS could then reduce the amount we recommended that Mission refund ($443, 183)
by the amount already repaid.

We continue to recommend that Mission refund to the Medicare program $443, 183 in estimated
overpayments and continue to strengthen controls to ensure full compliance with Medicare
requirements.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                             iv
                                                       TABLE OF CONTENTS 


INTRODUCTION ........................................................................................................................ ] 


        Why We Did This Review ................................................................................................... I 


        Objective .................... .. .................... .......... ........... .. ............................................................. 1 


        Background .......................................................................................................................... I 

          The Medicare Program .................................................................................................... ] 

          Hospital Inpatient Prospective Payment System ............................................................ } 

          Hospital Outpatient Prospective Payment System .......................................................... ] 

          Hospital Claims at Risk for Incorrect Billing .................................................................2 

          Medicare Requirements for Hospital Claims and Payments ..........................................2 

          Mission Hospital .............................................................................................................3 


       How We Conducted This Review ......................................................................................... 3 


FINDINGS ....................................................................................................................................3 


       Billing Errors Associated With Inpatient Claims ......................................... ................ .4 

            Incorrectly Billed as Inpatient ......................................... ..................................... 4 

            Incorrectly Billed Diagnosis-Related-Group Codes ......................................... ...... .4 


       Billing Errors Associated With Outpatient Claims...............................................................5 

            Manufacturer Credits for Replaced Medical Devices Not Obtained.......................... 5 

            Incorrectly Billed Evaluation and Management Services .............................................. 6 


       Overall Estimate of0verpayments .......................................................................................6 


RECOMMENDATIONS ..............................................................................................................6 


MISSION HOSPITAL COMMENTS AND 

 OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................................6 

       Mission Comments ........................................................................................................6 

       Office of Inspector General Response ........................................................................... 7 


APPENDIXES

      A:    Audit Scope and Methodology ........................................................................................ 9 

      B:    Statistical Sampling Methodology................................................................................. II 

      C:    Sample Results and Estimates ....................................................................................... 14 

      D:    Results of Review by Risk Area.................................................................................... l5 

      E:    Mission Hospital Comments.......................................................................................... l6 





Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                                                                            v
                                          INTRODUCTION 


WHY WE DID THIS REVIEW 


This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office oflnspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Mission Hospital (Mission), complied with Medicare
requirements for billing inpatient and outpatient services on selected types of claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary's stay is assigned and the severity level of the patient's diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary' s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                       1
                       1
within each APC group. All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient claims billed with high-severity-level DRG codes,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient same-day discharges and readmissions,

    •   outpatient claims billed with evaluation and management (E&M) services, and

    •   outpatient claims with payments greater than $25,000.

For the purposes of this report, we refer to these areas at risk for incorrect billing as "risk areas."
We reviewed these risk areas as part ofthis review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that "are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member" (the Social Security Act (the Act),§ 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider(§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount ofthe payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100­
04, chapter 1, § 80.3.2.2). Additionally, the Manual states that providers must use HCPCS codes
for most outpatient services (chapter 23, § 20.3).




1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                                       2
Mission Hospital

Mission, which is part of the Mission Health System, is a 795-bed hospital located in Asheville,
North Carolina. According to CMS's National Claims History data, Medicare paid Mission
approximately $697 million for 53,057 inpatient and 295,685 outpatient claims for services
provided to beneficiaries during CYs 2011 and 2012.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $18,584,513 in Medicare payments to Mission for 2,105 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 192
claims with payments totaling $2,760,822. These 192 claims had dates of service in CY 2011 or
CY 2012 and consisted of 110 inpatient and 82 outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 35 claims
to medical review to determine whether the services were medically necessary.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Mission for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our audit scope and methodology.

                                              FINDINGS

Mission complied with Medicare billing requirements for 144 ofthe 192 inpatient and outpatient
claims we reviewed. However, Mission did not fully comply with Medicare billing requirements
for the remaining 48 claims, resulting in overpayments of$121,594 for CYs 2011 and 2012
(audit period). Specifically, 28 inpatient claims had billing errors resulting in overpayments of
$100,165, and 20 outpatient claims had billing errors resulting in overpayments of$21,429.
These errors occurred primarily because Mission did not have adequate controls to prevent the
incorrect billing of Medicare claims within the selected risk areas that contained errors.

Based on our sample results, we estimated that Mission received overpayments of at least
$443,183 for the audit period. See Appendix B for details on our sample design and
methodology, Appendix C for our sample results and estimates, and Appendix D for the results
of our review by risk area.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                      3
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS 


Mission incorrectly billed Medicare for 28 of 110 sampled inpatient claims, which resulted in
overpayments of$100,165.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items and services that " are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member" (the Act, § 1862(a)(l )(A)).

For 26 of the 110 inpatient claims, Mission incorrectly billed Medicare Part A for beneficiaries
whose level of care and services provided should have been billed as outpatient or outpatient
with observation services. The medical records did not document that it was reasonable and
necessary for the patient to be admitted to the hospital as an inpatient. For example, one patient
came to Mission's emergency department after fainting at home. The studies performed in the
emergency department were negative; however, the patient was admitted for monitoring and
further evaluation.

Although medical review determined that all 26 of these claims were incorrect, Mission only
agreed that 2 of the 26 inpatient short stay claims were incorrectly billed. Mission stated that the
two claims were not screened by their utilization management program to ensure medical
necessity criteria were met for the inpatient admission prior to discharge. These 26 errors
occurred because system controls were not in place to identify short stays prior to discharge and
                                                                  2
billing. As a result, Mission received overpayments of$97,540.

Incorrectly Billed Diagnosis-Related-Group Codes

Medicare payments may not be made for items and services that "are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member" (the Act,§ 1862(a)(l)(A)). Additionally, the Manual requires
providers to complete claims accurately so that Medicare contractors may process them correctly
and promptly (chapter I,§ 80.3.2.2).

For 2 ofthe 110 inpatient claims, Mission billed Medicare for incorrect DRG codes. Medical
review determined that the secondary diagnosis codes were not sufficiently supported in the
medical records. Mission agreed that these two claims lacked documentation to support the
secondary diagnosis. Mission attributed these errors to the manual nature of coding and the
potential for occasional human error. As a result of these errors, Mission received overpayments
of$2,625.

2
 Mission may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                                      4
BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Mission incorrectly billed Medicare for 20 of 82 sampled outpatient claims, which resulted in
overpayments of $21 ,429.

Manufacturer Credits for Replaced Medical Devices Not Obtained

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if: (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). The CMS Provider Reimbursement Manual (PRM) reinforces these requirements in
additional detail (Pub. No. 15-1). 3

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier "FB" and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.
If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

For 2 of the 82 outpatient claims, Mission did not obtain credits for replaced devices for which
credits were available under the terms of the manufacturer's warranty:

    • 	 For one claim, Mission did not attempt to return the cardiac lead from a pacemaker to the
        manufacturer to determine whether the device was eligible for a warranty credit.

    • 	 For one claim, Mission did not obtain a credit for a replaced medical device because the
        manufacturer's representative did not return the device. At the conclusion of our onsite
        work in March 2014, Mission had received a credit for this device; however the Medicare
        claim had not been adjusted.




3
  The PRM states: "Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost-conscious buyer pays for a given item or service. If costs are determined to exceed the level that such buyers
incur, in the absence of clear evidence that the higher costs were unavoidable, the excess costs are not reimbursable
under the program" (part I, § 2102.1 ). Section 2103 further defines prudent buyer principles and states that
Medicare providers are expected to pursue free replacements or reduced charges under warranties. Section
2103(C)(4) provides the following example: "Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full or partial
credits or payments available under the terms of the warranty covering the replaced equipment. The credits or
payments that could have been obtained must be reflected as a reduction of the cost ofthe equipment."




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                                       5
Mission stated that their key controls were operating as described in its policy and procedure for
obtaining credit for replaced devices. However, as a result of our review, Mission reviewed its
current policy and procedure and made revisions to ensure followup with vendors. As a result,
Mission received overpayments of $20,442.

Incorrectly Billed Evaluation and Management Services

The Manual states that a Medicare contractor pays an E&M service that is significant, separately
identifiable, and above and beyond the usual pre- and post-operative work of the procedure
(chapter 12, § 30.6.6(8)). In addition, the Act precludes payment to any provider of services or
other person without information necessary to determine the amount due the provider
(§ 1833(e)).

For 18 of the 82 outpatient claims, Mission incorrectly billed Medicare for E&M services. For
all 18 claims, the E&M services were not significant, separately identifiable, and above and
beyond the usual preoperative and postoperative work of the procedure. For example, for seven
claims, the Hospital incorrectly billed as E&M services a routine laryngoscopy procedure, which
is a routine and normal procedure conducted in the course of postoperative work. Mission
attributed the incorrect billing for all 18 claims to clerical and procedural errors, its billing
interpretation of E&M guidelines for capturing "above and beyond" work, and a "knowledge
deficiency" in one of its hospital departments.

As a result of these errors, Mission received overpayments of$987.

OVERALL ESTIMATE OF OVERPAYMENTS

On the basis of our sample results, we estimated that Mission received overpayments of at least
$443,183 for the audit period.

                                      RECOMMENDATIONS

We recommend that Mission:

    • 	 refund to the Medicare program $443,183 in estimated overpayments for claims that it
        incorrectly billed for the audit period and

    •   strengthen controls to ensure full compliance with Medicare requirements.

    MISSION HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL
                           RESPONSE

Mission Comments

In written comments on our draft report, Mission partially agreed with our first recommendation
and discussed steps that it had taken or planned to take in regards to our second recommendation.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                        6
In regards to our first recommendation, Mission agreed that 23 claims were billed incorrectly and
described the actions it had taken to correct them.

Mission did not agree that it incorrectly billed 24 short stay claims and said it would appeal all
24 cases. Additionally, Mission did not agree that it incorrectly billed one medical device claim.

Mission also disagreed with our use of extrapolation for the short stay cases and said that:

      •   the audit report had insufficient information to determine the validity of the sampling and

      •   it was not provided the details of the statistical sampling methodology.

Mission said that based on the timing of the review and the directive that it should not take action
on the claims involved in the audit until the review was finalized, Mission would not have been
able to bill Medicare Part B for any of the claims under the timely filing rules.

Mission further stated that four of the DRGs we reviewed have already had record requests and
denials from either a RAC or MAC. Mission reasoned that it would be paying these
overpayment cases twice if the OIG extrapolation covered a DRG that was for the same time
period that the RAC or MAC had already reviewed.

With respect to one of the medical device claims for which Mission did not obtain a
manufacturer's credit, Mission said that the case involved a "subclavian crush injury to a cardiac
lead," and as such, the manufacturer representative indicated that they do not issue warranty
credits for "crush injuries." Mission's comments are included in their entirety as Appendix E.

Office of Inspector General Response

In response to Mission's concerns regarding rebilling for certain services that were denied as part
ofthis review, we acknowledge its comments; however, the rebilling issue is beyond the scope
of our audit. As stated in the report, we were unable to determine the effect that billing Medicare
Part B would have on the overpayment amount because Mission had not billed, and the MAC
had not adjudicated, these services prior to the issuance of our draft report.

In regard to Mission's disagreement that it incorrectly billed 24 short stay claims, we submitted
for medical review by the MAC Mission's medical record documentation for each of these
claims. We also submitted for medical review the additional medical record documentation that
Mission gave us subsequent to the MAC's original determination. On the basis of the medical
review findings, we continue to maintain that Mission incorrectly billed these 24 claims.

We do not agree with Missions' comment regarding the claim for which it did not seek a
manufacturer's credit. The manufacturer's warranty required Mission to return the lead to the
manufacturer so that it could determine whether it was eligible for a credit. In its written
comments, Mission did not provide any documentation to show that it complied with this
requirement of the manufacturer's warranty. Therefore, we continue to question this claim.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                        7
Regarding Mission's objections to our statistical sampling and extrapolation, Federal courts have
consistently upheld statistical sampling and extrapolation as a valid means to determine
overpayment amounts in Medicare. See Anghel v. Sebelius, 912 F. Supp. 2d 4 (E.D.N.Y. 2012);
Miniet v. Sebelius, 2012 U.S. Dist. LEXIS 99517 (S.D. Fla. 2012); Bend v. Sebelius, 2010 U.S .
Dist. LEXIS 127673 (C.D. Cal. 2010).

Furthermore, the use of statistical sampling and extrapolation to determine overpayment amounts
in Medicare does not violate due process because the auditee is given the opportunity to appeal
the audit results through the Medicare appeals process. See Transyd Enter., LLC v. Sebelius,
2012 U.S. Dist. LEXIS 42491 at *34 (S.D. Tex. 2012).

We disagree with Mission's comment that it was not provided the details of our statistical
sampling methodology. Prior to beginning our onsite work at Mission, at both the entrance and
exit conferences, and numerous instances during the course of our audit, Mission had questions
concerning our sampling frame, sample selection, and extrapolation. On each of these occasions,
we thoroughly discussed and answered Mission's questions. Specifically, we discussed the
development and definition of our sampling frame and sample unit. We discussed the random
selection of our sample, how we applied relevant criteria in evaluating the sample, and the
statistical sampling software that we used to apply the correct formulas for the extrapolation.
Additionally, we directed Mission to the OIG Web site where, if it had further questions, the
statistical software used to extrapolate the results was available for public use.

With respect to Mission's concerns about duplicate refunds for reviews of the same claims in our
sampling frame, we excluded all claims in our sampling frame from future Recovery Audit
Contractor (RAC) review and removed claims from our sample frame that the RAC had
previously reviewed. Additionally, while the RACs do have the authority to extrapolate, CMS
told us that the RACS have not done so. For these reasons, our extrapolation would not have
caused Mission to pay twice for overpayments in our sampling frame. However, to prevent
repaying Medicare twice for claims that Mission may have already repaid due to previous RAC
or MAC reviews, Mission should tell CMS which claims in our sampling frame were previously
adjusted. CMS could then reduce the amount we recommended that Mission refund ($443,183)
by the amount already repaid.

We continue to recommend that Mission refund to the Medicare program $443,183 in estimated
overpayments and continue to strengthen controls to ensure full compliance with Medicare
requirements.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                   8
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE

Our audit covered $18,584,513 in Medicare payments to Mission for 2,105 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 192
claims with payments totaling $2,760,822. These 192 claims had dates of service in CY 2011 or
CY 2012 and consisted of 110 inpatient and 82 outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 35 claims
to medical review to determine whether the services were medically necessary.

We limited our review of Mission's internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Mission for Medicare reimbursement.

We conducted our fieldwork at Mission, in Asheville, North Carolina, from February through
May 2014.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Federal laws, regulations, and guidance;

    • 	 extracted Mission's inpatient and outpatient paid claims data from CMS's National
        Claims History File for CYs 2011 and 2012 (audit period);

    • 	 obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    • 	 used computer matching, data mining, and other analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    • 	 selected a stratified random sample of 192 claims (Appendix B) totaling $2,760,822 for
        detailed review;

    • 	 reviewed available data from CMS's Common Working File for the sampled claims to
        determine whether the claims had been cancelled or adjusted;



Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                       9
    •   reviewed the itemized bills and medical record documentation Mission provided to
        support the sampled claims;

    • 	 requested that Mission conduct its own review of the sampled claims to determine
        whether the services were billed correctly;

    • 	 reviewed Mission's procedures for classifying hospital stays (outpatient, outpatient with
        observation services, or inpatient admission), case management, coding, and Medicare
        claim submission;

    • 	 used CMS's Medicare contractor medical review staffto determine whether 35 sampled
        claims met medical necessity requirements;

    • 	 discussed the incorrectly billed claims with Mission personnel to determine the 

        underlying causes of noncompliance with Medicare requirements; 


    • 	 calculated the correct payments for those claims requiring adjustment;

    • 	 used the results of the sample to estimate the Medicare overpayments to Mission 

        (Appendix C); and 


    • 	 discussed the results of our review with Mission officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                   10
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY 


POPULATION

The population was inpatient and outpatient claims paid to Mission for services provided to
Medicare beneficiaries during the audit period.

SAMPLING FRAME

According to CMS ' s National Claims History data, Medicare paid Mission $697,089,046 for
53,057 inpatient and 295,685 outpatient claims for services provided to beneficiaries. For the 35
risk areas, Medicare paid Mission $683,458,173 for 52,157 inpatient and 295 ,685 outpatient
claims for services provided to beneficiaries.

From these 35 risk areas, we selected 8 consisting of2,493 claims totaling $20,948,535 for
further refinement.

We then removed claims as follows:

    • 	 $0 paid claims;

    • 	 claims duplicated within individual risk areas by assigning each:

            o 	 inpatient claim that appeared in multiple risk areas to just one area based on the
                following hierarchy: I) Inpatient Manufacturer Credits for Replaced Medical
                Devices, 2) Inpatient Same-Day Discharges and Readmissions , 3) Inpatient
                Transfers, 4) Inpatient Claims Billed With High-Severity-Level Diagnosis­
                Related-Group Codes, and 5) Inpatient Short Stays and

            o 	 outpatient claim that appeared in multiple risk areas to just one area based on the
                following hierarchy: 1) Outpatient Manufacturer Credits for Replaced Medical
                Devices, 2) Outpatient Claims Billed With Evaluation and Management Services,
                and 3) Outpatient Claims With Payments Greater Than $25,000;

    • 	 claims under review by the Recovery Audit Contractor (RAC) as of December 23, 2013;

    • 	 claims previously suppressed in the RAC data warehouse as of January 5, 20 14; and

    • 	 additional inpatient claims billed with high-severity-level DRGs suppressed in the RAC
        data warehouse as of January 24, 2014.

This resulted in a sampling frame of2,105 unique Medicare claims in 7 risk areas totaling
$18,584,513.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                        11
                                                                 Number of       Amount of
                          Risk Area                               Claims         Payments
 Inpatient Claims Billed With High-Severity-Level Diagnosis-
 Related-Group Codes                                                   1,549      $13,653,226
 Inpatient Short Stays                                                   176          720,678
 Inpatient Manufacturer Credits for Replaced Medical Devices              30          704,154
 Inpatient Same-Day Discharges and Readmissions                            5           40,183
 Outpatient Claims With Payments Greater Than $25,000                     85        3,196,059
 Outpatient Manufacturer Credits for Replaced Medical
 Devices                                                                  17          236,847
 Outpatient Claims Billed With Evaluation and Management
 Services                                                                243           33,366
                                                       Total           2,105      $18,584,513

SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used a stratified random sample. We divided the sampling frame into 7 strata based on risk
area.

SAMPLE SIZE

We randomly selected 192 claims for review as follows:

                                                                               Claims
                                                                                 in
         Stratum                             Risk Area                         Sample
                      Inpatient Claims Billed With High-Severity-Level
             1                                                                       40
                      Diagnosis-Related-Group Codes
             2        Inpatient Short Stays                                          35
                      Inpatient Manufacturer Credits for Replaced Medical
             3                                                                       30
                      Devices
             4        Inpatient Same-Day Discharges and Readmissions                  5
             5        Outpatient Claims With Payments Greater Than $25,000           30
                      Outpatient Manufacturer Credits for Replaced Medical
             6                                                                       17
                      Devices
                      Outpatient Claims Billed With Evaluation and
             7                                                                       35
                      Management Services
                                                                       Total        192




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                   12
SOURCE OF RANDOM NUMBERS 


We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata 1, 2, 5, and 7 . After generating the random
numbers for these strata, we selected the corresponding claims in each stratum. We selected all
claims in strata 3, 4, and 6.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the total amount of Medicare
overpayments paid to Mission for the audit period.




Medicare Compliance Review ofMission Hospital (A -04-14-03077)                                13
                     APPENDIX C: SAMPLE RESULTS AND ESTIMATES 


SAMPLE RESULTS


                                                                          Number of
                                                                          Incorrectly
            Frame                                                            Billed            Value of
             Size           Value of        Sample       Value of          Claims in        Overpayments in
           (Claims)          Frame            Size       Sample             Sample              Sample
    1        1,549          $13,653,226        40            $401,719           2                          $2,625
    2         176                720,678       35             144,753           26                         97,540
    3          30                704,154       30             704,154            0                             0
    4           5                 40, 183       5              40,183           0                              0
    5          85              3,196,059       30           1,228,459           0                              0
    6          17                236,847       17             236,847           2                         20,442
  7           243                33,366        35               4,707           18                           987
Total        2,105          $18,584,513       192          $2,760,822           48                      $121,594


ESTIMATES

                      Estimated Value of Overpayments for the Audit Period
                       Limits Calculatedfor a 90-Percent Corifidence Interval

                                       Point Estimate              $517, 781
                                       Lower limit                 $443,183 4
                                       Upper limit                 $595,004




4
  In accordance with OAS policy, we did not use the results from stratum I in calculating the estimated
overpayments. Instead, we calculated the estimated overpayments by adding the actual overpayments from stratum
I ($2,625) to the lower limit ($440,558), which totaled $443,183.




Medicare Compliance Review ofMission Hospital (A -04-14-03077)                                               14
                   APPENDIX D: RESULTS OF REVIEW BY RISK AREA 



                                                         Value of          Claims      Value of
                                         Selected        Selected         With Over­     Over­
              Risk Area                  Claims          Claims           payments     payments
  Inpatient

  Short Stays                                   35          $144,753              26      $97,540
  Claims Billed With High­
                                                40              401,719            2           2,625
  Severity-Level DRG Codes
  Manufacturer Credits for
                                                30              704,154            0               0
  Replaced Medical Devices
  Same-Day Discharges and
                                                 5               40,183            0               0
  Readmissions
    Inpatient Totals                           110        $1,290,809              28     $100,165


  Outpatient
  Manufacturer Credits for
                                                17          $236,847               2      $20,442
  Replaced Medical Devices
  Claims Billed With Evaluation
                                                35                4,707           18            987
  and Management Services
  Claims With Payments Greater
                                                30         1,228,459               0               0
  Than $25,000
    Outpatient Totals                           82        $1,470,013              20      $21,429

  Inpatient and Outpatient
                                               192        $2,760,822              48     $121,594
  Totals


        Notice: The table above illustrates the results of our review by risk area. In it,
        we have organized inpatient and outpatient claims by the risk areas we reviewed.
        However, we have organized this report's findings by the types of billing errors
        we found at Mission. Because we have organized the information differently, the
        information in the individual risk areas in this table does not match precisely with
        this report's findings.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                      15
                       APPENDIX E: MISSION HOSPITAL COMMENTS 





            ~~ION   HEALTH

            August 18,2014

            Via Fed Ex and l£1ectronic Submission \'ia E-Mail

            Lori S. Pilcher
            Regional Inspector General for Audit Services
            Olllcc of Audit Services. Region IV
            6 1 Forsyth Street, SW. Suite- 3T41
            Atlanta, GA 30303

            RE : OIG Draft Report Number A-04-14-03077
            Medicare Compliance Review of Mission I Iospital, Inc.

            Dear Ms. Pilcher:

            Enclosed is our response to the Department of Health and Human Services. Oftlce of
            Inspector General (OIG) dratl report entitled Medicare Complimrce Review r?(Mission
            Hospitalfor the Period Jamta1J' 1, 2011 th,.ough December 31, 2012. Mission Hospital
            Inc. (Mission) is committed to compliance \'vith all regulations including Medicare
            requirements for billing inpatient and outpatient services. Mission takes compliance
            seriously and has a robust compliance progmm that focuses on staying abreast of the
            complex mles and regulations applicable to ensure complete and accurate documentation
            exists for claims submilled to Medicare.

            Mission appreciates the opportunity to respond to this dratl report and will be prm:iding
            statement<> of concurrence and non-concurrence along with any necessary conecti \'e
            action taken or planned ar; requested . We would like to make speeitic note that we take
            exception w1th the tin dings of alleged billing errors and in particular the statements that
            "Mission did not have adequate controls to prevent the incorrect billing of Medicare
            claims within the selected risk area'i that contained errors."

            The dratt report contains two recommendations: Mission refund to the Medicare program
            $443,183 in estimated overpayments for claims it incorrectly biiJed tbr the audit period
            and that Mission strengthen controls to ensure full compliance with Medicare
            requirements. We will address e.ach of these findings within the risk areas where alleged
            or estimated overpayments occurred.


                        11 Ardm ore Street. Asheville, NC' 28803   (8:28) 113-3523   .Jcn, williams@mlti .org




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                                   16
            BILLING ERRORS ASSOCIATED WITII INPA TIEJ\"T CLAIMS

            Incorrectly Billed as Inpatient

            Mission disagrees wilh the tinding thai 26 inpatient short stay cases were billed
            incorrectly resulting in an overpayment of$97 ,540. We do however agree that two of the
            26 cases were hilled incorrectly. One of the two ca<ses had a status change from
            observation to inpatient but was subsequently discharged before being screened by Case
            Management. The other patient was approved for inpatient status by an ex.1emal
            physician reviewer. but was subsequently discharged on the same calendar day as the
            admission . The total overpayment for these cases was $7, 120.

            Corrective actions taken include our continued Case Management review of cac;es as
            noted below and the implementation of an information technology discharge alert in
            October 2013 to assist with identifying short length of :;tay cases p1ior to discharge and
            billing as an additional intemal control measure.

            Only one ofthe remaining 24 cases had not been reviewed by Ca."ie Management prior to
            the patients' discharge. The other 23 cases had been reviewed by Case Management
            (contrary to the report); 5 were additionally reviewed by an e:\.1emal physician advisor
            and alll~ontaincd appropriate documentation to support an inpatient level of care.
            Mission Case Management utilizes lnterQuaKI(l, a nationally recognized. evidence-based
            scre.ening criterion for inpatient acute level of care determinations. Additionally. all 24
            cases were rc\'icwed by a secondary physician advisor in connection with the Compliance
            Review to ensure that the criteria tor inpatient status was met. The physician advisors
            dctennined that all 24 cases met inpatient criteria. Supporting documentation complete
            with mcdicul evidence und references relied upon which we believe support the inpatient
            admission were provided to the auditors_ l:>tning the Compliance Review and the Exit
            Conference. the auditors were not able to talk about the cases on a substantive ba.~is as
            they had not "done the work" but relied upon the Medicare Administrative Contractor's
            (MAC's) review.


            Mission· s Case Management program includes timely screening of admissions and
            monitoring of accuracy through reports, denial activity and internal audits to ensure
            complianc.: \\ilh the Centers for Mcdicurc and Medicaid (CMS) udmissiun and billing
            policies and g1.1idelines. Case Managers screen admissions 16 hours per day, 7 days a
            week, 365 days per year in collaboration \Vith the providers and secondary physician




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                             17
            advisors to ensure the appropriate level of care is provided and medical necessity criteria
            are met for each admission.

            The following intemal controls are in place to ensure compliance \Vith CMS's admission
            and billing policies and guidelines:

                I. 	 Timely screening of admissions using InterQual® Acute Level of Care Screening
                     Criteria;
                2. 	 Secondary physician advisor review of all cases not meeting screening criteria;
                3. 	 Information technology alerts to Case Managers and as applicable, to providers for
                     admission status changes and for select length of stay periods;
                4. 	 Initial InterQual® training; annual inter-rater reliability testing and audits of
                     individual Case Manager reviews:
                5. 	 Continuing education to providers and hospital personnel ofCMS regulatory
                     changes;
                6. 	 Committee oversight and monitoring of high risk areas through various sources
                     including the Short Term Acute Care Program for Evaluating Payment Patterns
                     Electronic Report (PEPPER). During the period 1' 1 Quarter 20 I I through 4 1h
                     Quarter 2013, there were no short stay outliers identified on Mission ' s PEPPER
                     reports.
                7. 	 Audit and Compliance Services staff regularly audit high risk areas as identified
                     by OIG and CMS , and also perform targeted reviews based upon risk analysis and
                     other areas where potential billing errors arc likely to occur. Results of these
                     audits are reviewed with leadership for corrective action if necessary including
                     any required follow-up activity.

            Mission would like to make the following points in general about the cases reviewed:

                I. 	 Patients presenting who required medically necessary inpatient care were 

                     appropriately billed as inpatient status despite the length of stay. 

                2. 	 The decisions to admit the patients to inpatient status were based on the
                     infom1ation that was available at tile time of presentation. 1 The hospital course,
                     either duration or findings, cannot be used to determine patient status and cannot
                     be used as an argument for or against patient status.




            'Medicare Intermediary Manual, paragraph 310 I, " ... reviewers should consider only the medical evidence which
            was available to the physician at the time an admission decision had to be made, and do not take into account other
            infonnation (e.g. test results) which became available only after admission."




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                                                     18
                   3. 	 Observation status was appropriate for patients for whom it was not clear if
                        admission was necessary at the time of initial evaluation and for whom more time
                        was required to determine whether inpatient status was appropriate.

            CMS guidance2 clearly states that the decision to admit a patient is a complex medical
            judgment which can be made only after the physician has considered a number of factors
            at the time of presentation based on the information available at that time and includes
            factors such as:

                  1. 	 The patient's history and current medical needs
                  2. 	 The types offaeilitics available to inpatients and outpatients, the hospital's by­
                       laws and admission policies and the relative appropriateness of treatment in each
                       setting
                  3. 	 The severity of signs and symptoms exhibited by the beneficiary
                  4. 	 The medical probability of something adverse happening to the beneficiary
                  5. 	 The need for diagnostic studies that are appropriately outpatient services to assist
                       in assessing the need for inpatient adm.ission
                  6. 	 The availability of diagnostic procedures at the time and location that the 

                       beneficiary presents 


            Using these criteria, we remain certain that the cases met the standard of inpatient
            admission given CMS guidaucc.3 Mission will be appealing all24 cases.
            The report footnotes the possibility of billing Medicare Pa1t H for these services, but
            indicates that DIG was not able to determine the effect that billing Medicare Part B




            2
                Me.dicare 13enefit Policy Manual, Chapter I, Section 10
            3
              Mission takes great exception with the reference to the 'example' case cited in the report on page 4 of the Draft as
            referencing that one patient ~came to Mission's emergency department after fainting at home. The studies
            performed in the emergency department w~-re negative; however, the patient was admitted for monitoring and
            further evaluation_" The reference fails to accurately reflect the patient's condition and care as the medical records
            clearly documented that it was reasonable and necessary for the patient to he admitted to the hospital as an inpatient.
            Th" pr"senting symptoms and the pre-existing medical problem.• made inpatient admission ofthe beneficiary
            medically necessary and appropriate. This patient was at high risk for morbidity and mortality from lethal
            cardiac dysrhythmia related to syncope and underlying cardiomyopathy and structural heart disease. These
            medical issues mandated placement in an inpatient setting because a less intensive setting would have
            presented a significant and direct threat to the patient's medical condition, safety and health. The inpatient
            admission fulfilled the widely accepted 20 I 0 lntcrQual® criteria for an acute inpatient level of medical care.
            Additional information regarding the treatment of syncope from the American College of Emergency
            Physicians guidelines as well as articles published in the Emergency Medicine Clinics of North America was
            provided to the reviewers to support this patient's inpatient admission. However, the r~-vicwcrs were not able
            to comment on this or any of the 24 cases since they had no medical background and merely accepted the
            finding.~ ofthe MAC based upon its biased review.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                                                         19
            would have on the overpayment amount because tltey bad not been billed and adjudicated
            by the MAC prior to the issuance of the OIG's draft report. There are several issues with
            this statement. First. we do not agree with the tin dings that these claims were not
            appropriately billed as inpatient claims, so we would not have rebilled these claims
            without losing our right to appeal them . Second, even if we agreed that the patients
            should have been treated under an observational level of care which we do not. based on
            the timing of the review and the directi"\re that no action be taken on the claims involved
            in the audit until the review was finalized . we would not have been able to bill Medicare
            Part B for any of the claims the timely filing ru les.

            E\'cn though Mission was not able to bill Medicare Part 11 for these services. the fact
            remains that any alleged overpayment should take into account that OIG does not assert
            that the services \\'ere not appropriate or medically necessary: the only issue in dispute is
            the patient statull as inpatient versus outpatient observation. There is no allegation that
            any of these claims were fraudulent or that the treating ph ysician's decision was clearly
            erroneous_ Therefore, the treating physician ·s decision to admit should be given
            deference. par1icularly over the bias of the MAC review. Given Mission 's case
            management review as well as the independent rev iew \vhich substm1tiates the treating
            physicians' decisions to admit the patients at issue. it is clear that even if the MAC or
            other auditor/reviewer were to disagree. Mission was wi thou t fault lllld should not be
            liable for any alleged overpay1nent huthermore, any alleged OYCI]laymcnt should be
            oilsel or reduced by the amount that Mission would have been paid had the services been
            billed as outpatient

            lncorrt>ctly Hilled Diagnosis-llelated-(;roup Codt's

            Mission agrees with the findings on the two cases id\.--ntificd based on luck of
            documentation to suppor1 tbc secondary diagnosis listcu on the billed claims. These
            errors were attributed to the manual nature of coding and the potential for occasional
            human c.rror.

            Mission has internal controls in place for identifying high risk coding areas. These high
            ri sk areas arc closely monitoft->~ by both lntcmaJ Coding Auditors a.,; well as our Clinical
            Documentation Improvement (CDI) Coordinator. Our Internal Coding Auditors review
            100°·i, of both inpatient and outpatient coding daily 011 the identified high risk coding
            arcus for accuracy ofbolh principal and secondary di~tgnosis as well as procedure codes.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                               20
            The CDI Coordinator reviews high risk coding and supporting documentation records
            daily.

            Both areas provide feedback and education to the coding staffwheo errors are identified .
            The coders arc responsible for collecting an y coding errors. If the claim has already been
                     . the ~.:odcr \\ill request a robilL Wc C(lllsistcntly main lain a monthl y internal
            submith-d.
            DRG accuracy rate of 95°o or above. Additionally, extemal coding audits are perfonned
            annuall y with results consistently the same as our intcmal audits.

            Mission has an education team that provides ongoing coding education to both the coders
            and the CDI specialists. In addition. we have a physician advisor who provides education
            regarding appropriate documentation based on clinical criteria to physicians. coders and
            CDJ 1o;pccialists.

            The corrective action related to these two claims involved returning these cnses to the
            originlll coders for coding correction and for a learning. opportunity. Additionally , they
            were presented at a coding stalT meeting for educational purposes for the benefit of all
            coding staff. fnlemal Coding Auditors and our CDI Coordinator will continue to perfonn
            internal audits to ensure high levels of accuracy are maintained and any errors are kept to
            a muumum .

            The case that was idcntilicd as overpaid based on the physician ·s documentation of a
            condition without supporting documentation was also discussed with the coding staff
            The coders will continue to recei,·e education by our physician advisor regarding cli nical
            indicators and the need to query when a condition is stated but may not meet clinical
            criteria. This is an ongoing process and this case •viii be used to provide education for
            the coders and CDI spccialis1s. 11 has also been forwarded to our physician advisor so he
            can include it in the educational presentations to the mcdicul stuff us well .

            BILLING ERRORS ASSOCL\ TED WITH OLTPATIENT CLAIMS

            Manufacturer Credits fol' Replaced l\ll'dical Devices Not Obtained

            Mission agrees with one of the two claims that were denied. As noted in the report. the
            manulactun:r' s representative did not return the device lor which a credit was due. Upon
            our rC\'ic\\ and inquiry, a credit memo was issued in the amount ofS 16, 10 l. This claim




Medicare Compliance Review ofMission Hospital (A -04-14-03077)                                              21
            was reprocessed subsequent to the audit as we \Vere advised not to process any adjusted
            claims until the audit was completed.

            The claim that we disagree with was a case involving a "subclavian crush injury to a
            cardiac lead.'' The manufacturer rcprcscntati vc clearly indicated thul they do not issue
            WlllT'cll1t)' credit:-; for "crush injuries.·· Warranty credits would be issued lor leads tailing
            ''to function within expected operating specifications due to defects in materials or
                                  4
            workmanship." The medical record documentation suppot1cd the clinic indication of a
            cnJsh injury; therefore, no credit was available to be obtained.

            Mission implemented a Warranty Device Credit Policy in 2004 and rccct1tly revised to
            update more current practices. We have a stringent follow-up procedure in place with
            manutacturing companies to dctcm1inc when warranty credits arc due. We believe our
            controls were operating properly and as prescribed per policy and procedure.

            lncorJ'ectl.)' Billed Evaluation and           ~bm1gemeot         (E/M) SPnicl's

            Mission agrees with the findings noted in the draft report and acknowledges receiving an
            overpayment ofS987. The incorrect billing for these claims was attributed to clerical and
            prm:.eduraJ errors and the misinterpretation of ElM guide lines for capturing additiooal
            work that was "above and beyond" the separately billable procedure. Further detail
            regarding how these errors occurred has previously been provided to the auditors. The
            follm,.·ing corrective actions were taken to address tl1e clerical errors and knowledge
            deficits identified .

            Item # 158

            The department was closed in October 2013 and no corrective action is applicable.

            Ircm 11161.172. 175. 177 . 179. 180.183. 186

            This error was identified during an internal audit in 20 13 _The Wnund Clinic staff no
            longer adds an ElM levcl for the work involved with a new patient visit or for a change in
            condition on the same date as a separately billable procedure. The computer-assisted
            coding (CAC) software l'>ithin the lntcllicure system suggests both a procedure code and
            an £ iM )e,·cl '"hen documentation seems to support bot h. The Intel Iieure system was




            • St Jude Metl•call.ifellme l.iJmtet! Warranty. Implantable Cerdiac Def•brillation Leads




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                                   22
            originally designed for professional billing and lacks some discernment capabilities
            helpful for facility billing. For that rea<~on. the module within the software that calculates
            and suggests ElM levels was disabled for facility billing. This has prevented the facility
            from inappropriately billing an E/M level along with a separately billable procedure on
            the same date.

            Item # 163. 166. 167, 170. l7L 176, 185

            Education regarding the ntles for billing both an _E iM and a procedure on the same date
            was provided on 1/3012014 when the problem was identified. The Radiation Therapy
            clinic staff no longer adds an E/M level when the follow-up visit is made only tor the
            laryngoscopy procedure.

            Item # I 88, 189

            This modifier -25 scenado involves multiple hospital departments i11cluding Radiology.
            the Radiation Therapy clin ic. Billing. Charge Master. and Coding. A multi-disciplinruy
            team has been convened to develop a process to provide a secondary level of
            coding ·moditier review prior to billing.

            RECOM:\,IENDATIONS

            In summary. Mission agrees to refund the Medicare program in the amount of$29.913
            delived a<; follows:

            Stratum 1    lncorre.::tly Billed DRG Codes       2              $ 2,625
            Stratum 2    Incorrect ly Billed as Inpatients    2              $ 7,120
            Stratum 6    ManuJacturcr Credits                                $19.181
            Stratum 7    lncon-ectlv Billed E & M Codes      .lli            $   987
            Total Estimated Overpaymt..'llts                 2J.             $29,913

            Adjusted claims have been submitted on the 23 accounts noted above in the amount of
            S29.913. Uowcvcr, Mission fundamentally disagrees with the usc of extrapolation for the
            short stay cases and contests any overpayment alleged based on extrapolation. The
            information contained in the report is insulTicientlo dctcnnine the validity of the
            sampling. We were not provided the details of the statistical sampling methodology.
            However, even if we were to agree with sampling itself. given the extent of Recovery




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                                23
            Audit Contractor (RAC) reviews on short stay claims during this same time period. it is
            innpproptiate to use extrapolation in this case to arrive at an estimated overpayment. The
            primary issue relates to the DRGs that were being denied as inpatient claims. Four of the
            DRGs reviewed have already had record requests and denials from either a RAC or
            MAC . It would be inappropriate to extrapolate these cases as we would be paying lor
            these overpayments twice. 5 While the population of records in these DRG categories
            may not be that great, the alleged eJTor rate is substantial. More than a majority of these
            accounts have already been recouped or arc in various stages of appeal. Thcrctorc.
            extrapolation is not appropriate and would violate Mission· s due process rights .

            Summa1-y

            Mission is committed to fully complying with all Medicare laws, rules and regulations.
            A strong culture of compliance exists within Mission and is evidenced by an etlcctivc
            compliance program that addresses all facets of \JOmpliance including Medicare billing
            compliance. Our intemal controls are review.;:d continually and updated as netlded \\·i1ere
            approptiale . The effectiveness of our oompli:tnce program was evident to the reviewers
            who commented on how well Mission performed in the areas reviewed. We do not take
            ex'temal audits lightly . In fact, we took this OIG audit very seriously by focusing swiftiy
            on the data collection and production of records, engaging key stakeholders throughout
            the audit, providing the auditors all requested infonnation in a timely manner and
            answering questions along the way. We came to agreement very quickly with the
            majority of the findings. but simply cannot agree with the decision that the 24 short stay
            cases were not appropriately billed as inpatient and will therefore be appealing these
            cases. Mi ssion maintains that to extrapolate overpayments based on these cases is
            inappropriate given the audit activity that ha,q already taken place. Therefore, Mission
            respcctlully requests that the 010 revise the draft report to remove extrapolation from
            this review and rellcct a de\lreased estimated overpayment of$29,913 as noted herein .




            ' There were ll.DRG~ assoctated with the cl3ll11s identified as mvolving overpayments. At least four of the 1:
            DRGs have been too subject of multipk R.AC re1•iews. For cxan1plc, OIG n=ns that two claims involving DRG
            31: inV()]ved OV-'T(l11Y011!nts. 1vlis.~ion billed a Iota] or 340 claims with DRG 312 for the time frame at issue in this
            review. Of those 241:1 claims. the RAC had prev10usly requ~ted 160 records and many of the denials remain IUldllT
            appeal Sin1i larly. OlG reviewed and denied two cla1ms invohing DRG 392 OC!67 total case• involvmg DRG
            392 m the same time perio<.l, the RAC r&Juestd 202 ror nme11 Hnd many()(' the denials remain under appeal. Wh1lc
            ll1e OJG did not review the same claims as had he-m rcvu.w"d by the Rr\C. it is clearly inappropriate ~., extmpolste
            flny overpayment based on prior review of such a sul.,tantial   1\Wll ber   of these cl•ums




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                                                           24
            Thank you for giving Mission the opportunity to provide this response to the draft report.
            Please do not hesitate to contact me should there be any questions regarding our response
            to the drall report .

            Charles Ayscue
            SVP & Chief financial Officer
            Mission Health, Inc.

            Jeri Williams
            SVP & Corporate Compliance Ofticer
            Mission Ilcalth , Inc.




Medicare Compliance Review ofMission Hospital (A-04-14-03077)                                            25
